No. 19-1029

In the Supreme Court of the United States
Bethany Austin, Petitioner,
v.
Illinois, Respondent.

On Petition for Writ of Certiorari
to the United States Court of Appeals for the Seventh Circuit

CERTIFICATE OF SERVICE

I, Jane Elinor Notz, a member of the Bar of this Court, certify that on July 6, 2020,
I emailed a copy of the BRIEF IN OPPOSITION FOR RESPONDENT ILLINOIS in
the above entitled case to any party required to be served,.and who consented to
electronic service only, pursuant to this Court’s order of April 15, 2020, strongly
encouraging electronic service when feasible. My email was addressed to:

Bob Corn-Revere
Counsel for Petitioner
bobcornrevere@dwt.com

  

Jane Elinor Noftz

 

100 West Randolph Street
Chicago, Illinois 60601
(312) 814-5376
jnotz@atg.state.il.us
eserve.criminalappeals@atg.state.il.us
* Counsel for Respondent
Illinois

 
